CERTIFICATE OF COMPLIANCE
No. 19-1138
In the

DeWayne D. Knight,
Petitioner
v.
Thomas Grossman, Jr., M.D.,
Respondent
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh
Circuit
REPLY BRIEF FOR PETITIONER

As required by Supreme Court Rule 33.1(h), I certify that
the petition for a writ of certiorari contains 2854 words,
excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of law that the foregoing is true and
correct.
Executed on June 29, 2020.
/s/ Emily J. Greb
Emily J. Greb

148504765.1

